No. 20-58

In the Supreme Court of the United States
ANITA SMITH,
Petitioner,
v.

VESTAVIA HILLS BOARD OF EDUCATION,
Respondent.
On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Eleventh Circuit

APPENDIX

Mark S. Boardman
Counsel of Record
Katherine H. Watkins
BOARDMAN , CARR , PETELOS,
WATKINS & OGLE , P.C.
400 Boardman Drive
Chelsea, AL 35043
(205) 678-8000
mboardman@boardmancarr.com
khortberg@boardmancarr.com
Counsel for Respondent

Respondent's App. 1
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 1 of 43

FILED
2017 Aug-08 PM 03:30
U.S. DISTRICT COURT
N.D. OF ALABAMA

IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
ANITA SMITH,
Plaintiff,

v.

)
)
)
)

Case No. 2:16-cv-00842-VEH

)

VESTAVIA HILLS BOARD OF
EDUCATION,
Defendant.

)
)
)
)
)

PLAINTIFF'S OPPOSITION TO DEFENDANT'S
MOTION FOR SUMMARY JUDGMENT

Alicia K. Haynes, Esq.
Charles E. GueITier, Esq.
HAYNES & HAYNES, P.C.
1600 Woodmere Drive
Birmingham, AL 35226
Tel: (205) 879-0377
Fax: (205) 879-3572

Respondent's App. 2
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 2 of 43

TABLE OF CONTENTS
I.

II.

STATEMENT OF DISPUTED AND UNDISPUTED FACTS ........... I
A.

Response To Defendant's Statement of Undisputed Facts .......... 1

B.

Additional Undisputed Facts ............................... 14

ARGUMENT. . .............................................. 24
A.

III.

VBE discriminated against Ms. Smith because of her race.. . ..... 24
1.

White employees were treated more favorably ............ 26

2.

Defendant's refusal to explain its decision is pretext. ...... 29

3.

Racial stereotypes infected VBE's decisionmaking ......... 30

4.

Other evidence of race discrimination and hostility ......... 32

5.

Defendant refused to interview Ms. Smith for open jobs ..... 34

6.

Listing Ms. Smith as "te1n1inated" rather than "resigned" is
further evidence of discrimination ...................... 35

B.

A reasonable jury could conclude that VBE has retaliated
against Ms. Smith because she opposed their unlawful conduct.. .. 36

C.

The evidence is sufficient to supp01i Ms. Smith's ADEA claim.... 38

Conclusion ................................................... 40

Respondent's App. 3
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 3 of 43

I.

STATEMENT OF DISPUTED AND UNDISPUTED FACTS
A.

Response To Defendant's Statement of Undisputed Facts.

1. Undisputed, but object to inference that Vestavia Board of Education
("VBE") complied with the policy or its treatment with regard to Ms. Smith
2, 3. Undisputed. Object for the same reasons as noted in ,I 1 above.
4. Disputed but irrelevant. The acknowledgment states only that she has been
"notified of the availability of the policies of the Vestavia Hills Board of Education
and [her] responsibility for compliance with these policies." (35-4.) 1
6. Disputed. A "grievance" only applies to matters "which fall within the
discretionary powers of the Board."(35-19:p.5.) Exhaustion of state or local
administrative remedies is neither a prerequisite to an action under§ 1983, Patsy v.
Bd. ofRegents of State ofFla., 457 U.S. 496, 507 (1982), nor Title VII, Gregory v.
Ga. Dep 't of Human Res., 355 F.3d 1277, 1279 (11 th Cir. 2004).

7, 8, 9, 10, 11. Undisputed but irrelevant for the reasons set forth in ,I6.
12,13,14. Undisputed but irrelevant to VBE's conduct in 2015.
18. Disputed. Gordon stated: "Try to get here at 7:00, et cetera, but there are
no clock Natzis, no one watching you or monitoring your time."(35-2:152:11-20.)

1

When citing to deposition transcripts, Plaintiff uses the following protocol: (docket
nurnber):(page as numbered in deposition):(line).
1

Respondent's App. 4
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 4 of 43

21. Disputed that this is a complete list of the secretaries or their duties. There
were approximately eleven secretaries, ten of whom were white: Pat Strange, Lisa
Greer, Debbie Walker, Connie Thomas, Margie Nelson, Anita Durant, Dawn Skewes,
Charlotte Manning, Tracey Towns and Nancy Smith.(35-1 :41 :6-44:3; 35-2:117:1416; 224:7-14; 35-12:10:15-15:14.)
22. Undisputed. Dispute inference that Thomas or Ms. Smith were required
always to be at their desks. Other employees were available to cover the desks.
Thomas' hours were 7:45 a.m. to 3:45 a.m. (35-12:13:20-21.) Thomas, Strange and
Nelson would all go to lunch and leave Ms. Smith alone.(35-2:121:6-16.) When
Thomas was absent, Ms. Smith covered her desk and duties.(35-1:99:12-101:23.)
23. Dispute inference that Ms. Smith and Thomas were required to be at school
on time. Loveless testified that it was "very important" that every employee be at the
school on time.(35-14:36:23-37:5.) Loveless informed the faculty and staff that his
expectation was for all employees to be on time each day.(35-27:pp.l-2. Loveless
never advised Ms. Smith that it was imperative that she be at the school on time.
24. Disputed. See responses to ,r,r 18 and 23.
25. Disputed. VBE' s Wage and Hour Handbook references breaks ofless than
twenty minutes. (Pl.Ex.2:HH000l 76.) See if26.
26. Disputed. Ms. Smith was not always provided a lunch break.(35-1 :44:42

Respondent's App. 5
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 5 of 43

6.)(35-1 :44:8-45: 1;88: 18-22.)
27. Disputed. There was no set policy. (35-1:88:18-22.)
31. Undisputed that Strange began mistreating Smith after Gordon left. (351:63:9-64: 19; 65:5-10.)
32. Disputed. Ignores the tone and the context of the remarks. Ms. Smith took
this remark to be racially offensive.(35-1: 64:21-66:2.)
36. Disputed as written. Hicks was hired as a part-time aide. 35-12:14:9-23;
15 :21-16:7. )Hicks was hired only after Ms. Smith complained to Hanson about being
mistreated and disrespected in the workplace.(35-12:63:6-66:3.)
37. Disputed. Hicks was a bus driver for a local church. (35-2:222:4-223:2.)
38. Disputed. Loveless testified that Hicks' schedule required her to be at work
between 7:00 a.m. and 3:00 p.m.(35-14:50:9-13; 35-12: 15:9-11.)
39. Disputed. Strange testified that she does not know because "I'm not up
there."(35-12:71: 10-20.) There is no policy or protocol for covering for
employees.(35-12:71 :21-72:3.)
40. Disputed. Smith testified it was not so much as what was said to her by the
other staff members, but their actions when she walked into a room and seeing the
response she received.(35-1:111:6-112:4.) Smith questioned Nelson about being
distant and pulling away from their friendship. Nelson explained that, with the
3

Respondent's App. 6
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 6 of 43

relationship she had with Strange, it would be best for her to conceal her friendship
with Smith.(35-2:119:4-7; 121:17-123:4.) Nancy Smith was hesitant to have a
conversation with Smith in Strange's presence and told Smith to be careful with
Strange.(35-1: 112: 13-21.) Towns also stopped talking to Smith during the latter part
of the 2014-2015 school year after Smith complained to Hanson.(35-1: 112:5-11; 352: 118: 1 l-20; 166:10-167:22.)
41. Disputed. See ,1 40.
42. Disputed.

Gordon evaluated Ms. Smith as "Meets or Exceeds

Requirements" for attendance and punctuality. (35-2:212:3-20; 216: 15-22;
Pl.Exs.4,31) Thirty days before Ms. Smith was terminated, Loveless evaluated Ms.
Smith as meeting or exceeding expectations. Loveless made handwritten comments
on two of the sections of the review: Problem Solving/Initiative, where he indicated
Ms. Smith "Demonstrates Excellence," writing "Mrs. Smith finds solutions to
problems very efficiently." (35-5.) The legend on the evaluation form states that a "2Needs Improvement" indicates the employee's perfonnance needs improvement in
this area. Performance is not necessarily 'poor'; this is simply not an area of
strength." Id. Loveless had the option of rating Ms. Smith as "I-Unsatisfactory" for
reliability if he believed that her tardiness was adversely affecting the school. He did
not. (Pl.Ex.21,31,3 2.)
4

Respondent's App. 7
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 7 of 43

43-44. Disputed as written. Smith explained that through her body language,
Strange expressed shock and disapproval that Smith's brother was maiTied to a white
woman and had a racially-mixed family, so much so that Strange said nothing about
the picture.(35-2:124:12-21; 125:19-126:4; 35-2:125:19-126:1.)
45. Undisputed in part. The post encouraged others to "like" the post of the
student wearing the Confederate flag shirt.(35-2:133:11-21.)
46. Disputed. Page created in order to be on Vestavia Trader. (35-2:131 :3-18.)
48. Undisputed in part. Strange told Smith she supported use of the
Confederate flag as a symbol for the schools and found nothing wrong with
displaying that flag.(35-2: 127: 13-128:30.) When Strange asked Smith whether being
forced to remove the Confederate flag made sense, Smith responded: "I know you' re
not asking me that."(35-2: 129:5-11.)
49. Disputed as written. Smith was instructed to withdraw a homeless African
American child from school. She sought clarification since this violated the law.
Strange and Nelson told Ms. Smith to "stay in her place," continue the withdrawal
process, and not say anything else about the child being homeless or mention to the
parent that the child was not required to withdraw. (35-2:138:7-23.) This command
was code-worded and racially hostile. "Know your place" is racially hostile language.
Professional Black women are Dying/or Inclusion, Blackfemaleproject.org (4/17 /16).
5

Respondent's App. 8
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 8 of 43

50. Disputed. See

ii 49.

51. Undisputed but clarified as in ii 49.
52. Undisputed in part and clarified that Strange was saying more than she was
"sick and tired" as Ms. Smith stood there listening to her while Loveless kept
repeating to Strange: "She's right behind you." (35-1 :70: 13-71 :7.)
53. Undisputed that this is part of what Ms. Smith stated to Loveless.
54. Undisputed but clarified that Ms. Smith and Hanson had already talked to
Loveless about how Ms. Smith was being mistreated in the workplace.(3 5-16: 184: 1022; 185:8-13; 35-1:71:8-20; 35-14:61:10-15.)
55. Undisputed that during the second semester of the 2014-15 school year,
Ms. Smith approached Hanson, on more than one occasion, in the hopes of speaking
with her about how Ms. Smith was being treated in the workplace. Hanson either
brushed-off Ms. Smith, by saying that she did not have the time to speak with her, or
offered to get with her later.(3 5-1: 107: 1-13.)
56. Undisputed that after being rebuffed on numerous occasions, Ms. Smith
finally got Hanson to speak with her.(35-1:107:13-16.) Ms. Smith generally told
Hanson about how she was being treated in the office. Hanson responded by telling
Ms. Smith that she would get back with her later.(35-1:107:13-108:3.)
57. Disputed. Hanson described Ms. Smith's complaint as mistreatment in the
6

Respondent's App. 9
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 9 of 43

workplace without knowing the specifics.(35-16: 169:21-170:5; 175: 19-22; 193:6-9.)
Hanson also described Ms. Smith as being upset when she talked to her and Hanson
was worried about Ms. Smith.(35-16:198:8-16; 207:19-21.)
58. Undisputed that Hanson never found time to meet with Smith. As a result,
Smith stopped mentioning anything to Hanson.(35-1:108:10-23.)
59. Undisputed that Ms. Smith did not use the word 'race' when she
complained to Hanson. Undisputed that Hanson concluded, based solely upon her
own stereotypical view of women, that Ms. Smith was complaining about women not
being able to get along in the workplace. (35-16:181:2-183:5.)
61. Disputed. Hanson did not recall mentioning Ms. Smith during her
conversation with Strange.(35-16:10-13.) Hanson has almost no recollection of her
conversation with Strange.(35-16: 183 :22-184:7 .) She recalls telling Strange that,
"[ w]hen a lot of women are in the same workplace in a small workplace, there tends
to be problems at times that need to be worked out and be honest about to make the
environment better .... "(35-16:181:10-15.) Strange recalls being told in October
2014 by Hanson that Ms. Smith believed Strange was not treating her fairly and was
disrespectful. (35-12:63:6-66:3.)
62. Undisputed that when Hanson met with Strange, she was unaware of the
specifics of Smith's complaints about her treatment in the workplace and did not give
7

Respondent's App. 10
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 10 of 43

any specific examples to Strange about her disrespectful treatment of Smith. (3512:67:23-69:5.) Hanson did not discuss the Confederate flag incident or any of the
other events Smith had complained of, when she met with Strange. Undisputed that
Strange responded by stating that she would "try to do better." (35-12:68:22-69:1.)
63. Disputed that Hanson told Loveless that she had spoken to "both"
employees. Hanson recalls telling Loveless that she felt like there were some
disgruntled feelings among some of the co-workers in the front office.(35-16: 184: 1022.) Undisputed that Loveless responded by stating Strange was becoming impatient
with "tardiness." (35-16: 185:8-13.)
64. Undisputed that Hanson told Ms. Smith that she had talked to Strange but
she did not follow-up to detennine if things were better and did not provide any
details to Ms. Smith about her conversation with Strange.(35-16:187:6-11.)
65. Undisputed but clarified in ,I 57.
66. Undisputed that in September 2014 a review of the VBE employees' time
cards showed a patten1 of tardiness with several employees.
67. Disputed as to when this occun-ed. The Time Card for Smith for 8/1/13 to
8/4/14 was printed on 9/02/15.(36-1 :3-11 :000027-000035.) This "Time Card" is not
in the same format as the monthly "Time Cards" for the period September 2014
through May 2015. There is no evidence, other than Loveless' s recent claim, that he
8

Respondent's App. 11
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 11 of 43

reviewed the time records of Smith during the 2014-2015 school year. Loveless
admits that he did not have Smith's time records for April, 2015, when he met with
Smith on April 27, 2015.(35-14:78:23-80:13.)Strange testified that the first she
looked at Smith's time sheets for 2014-2015 was when "we gathered everything to
give to the lawyers."(35-12:29:4-15.)
68. Undisputed but clarified that Ms. Smith and Hanson had already talked to·
Loveless about Ms. Smith's complaints of mistreatment. See ,I 54.
69. Undisputed but clarified in ,I 42.
70. Disputed as vague. Ms. Smith had no authority to approve punctuality. If
VBE intended to say 'improve,' disputed. Loveless did not go over the evaluation
during the meeting with Ms. Smith.(35-2:161:3-5). There was no discussion about
punctuality during that meeting (3 5-2: 161 : 15-20) and Ms. Smith did not acknowledge
that she agreed with Loveless' assessment. 35-5:3 states: "Signing this fom1does not
necessarily indicate that you agree with this evaluation."
71. Disputed as to whether Ms. Smith was tardy.Non-certified employees such
as Ms. Smith were expected to clock in at or around their scheduled time to begin
work. (Pl. Ex. 2.) Further, the evaluation issued to Ms. Smith was not a disciplinary
action.(35-14:83 :3-7 .) Loveless did not tell Ms. Smith that, if her punctuality did not
improve, he would recommend that she be tenninated.(35-14:75:15-21.)
9

Respondent's App. 12
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 12 of 43

72. Undisputed that whenever any employee is tardy or sick, other office
employees or administrators, must cover for that employee.
73. Undisputed that tardiness within any office could be burdensome to the
other employees who had to cover the duties of the tardy employee. Nevertheless,
VBE tolerated the tardiness of the white clerical workers. (Pl.Exs.4,5,8,9,10, 21.)
74. Dispute that VBE ten11inated Ms. Smith because of tardiness and the
alleged problems it caused. Five individuals, including Ms. Smith, had time issues.
All ofthose individuals, save Ms. Smith, are Caucasian. Despite the habitual tardiness
of the four Caucasian employees, Loveless is unable to provide any explanation as
to why none of those individuals were disciplined or tenninated. Loveless only
criticized Ms. Smith for tardiness. "Tardiness" is a pretext for tenninating Ms. Smith.
(35-14:81 :5-82: 17 .)
75. Disputed. Conjecture and lack of foundation. Hanson relied solely upon
Loveless' recommendation. She was not involved in that determination and is not
competent to testify as towhatmotivatedanotherperson. (35-16:203:22-204:10.) She
"can't answer for standards for Loveless."(35-16:212:23-213:7.)
76. Disputed. See response to ,i,i 74 and 75.
78. Disputed. Ms. Smith asked Hanson why she was being terminated and
Hanson refused to provide a reason.(35-14:19:9-15.)
10

Respondent's App. 13
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 13 of 43

79. Undisputed that other employees who were told they were being terminated
submitted resignation letters after the May 19, 2015 meeting but before the May 20,
2015 Board Meeting and were listed as "resigned."
81. Unable to admit or deny.
82. Disputed. On May 19, 2015, by 8:22 a.m., Ms. Smith submitted paperwork
to VBE demonstrating her desire to retire. (Pl.Ex.16:000096-97; Pl. Ex. 16:000098.)
This paperwork is official written notice to the Board of her intention to retire and to
voluntarily terminate her employment status, i.e. resign.
83. Disputed. VBE has not identified any written policy requiring a Board
employee to submit a letter to her administrator in addition to submitting paperwork
to the VBE and the Teachers' Retirement System. Ms. Smith submitted her notarized
Application for Retirement to VBE on May 19, 2015. A copy was placed in Ms.
Smith's personnel file. Ms. Smith's notarized statement that she intended to retire is
written notice to the Board of her intention.(Pl. Ex. 16.)
84. Undisputed but irrelevant for the reasons stated in response to ,r 83.
85-86. Disputed as stated in ,r 83.
87. Undisputed generally, though not all positions are posted.
88. Undisputed in part, clarified. Neither Phillips nor the Board has ever
rejected a principal's recommendation for hiring or tem1inating a clerical
11

Respondent's App. 14
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 14 of 43

employee.(35-6:49:14-21;55:5-11.)
89. Disputed. Phillips, as the corporate designee, testified VBE does not hire
without posting, but some positions are not posted.(35-7:168:10-20.)
90. Undisputed that Hicks began performing Anita Smith's job on May 22,
2015, despite the fact that Hicks had a demonstrated record of tardiness. Only white
applicants were interviewed to fill the front desk secretary/registrar position.(35-24:
Exhibit J-1.) Dispute that Hicks was the best qualified. Phillips, as the corporate
designee, testified that VBE did not know of Hicks' qualifications or experience.(3 57:167:7-15.)
91. Disputed. See ,-i 90. (35-6: 101: 1-17 .)
92. Disputed. See ,-i 95.
93. Undisputed but clarified. Phillips testified, as the corporate designee, that
VBE did not remember seeing the posting for the position that Hicks was hired to
replace Ms. Smith.(35-7:171:16-20.)
95. Disputed. Phillips testified that Dr. Burgess, "in the very beginning" asked
her about the lawsuit before VBE had seen it.(35-7:268:12-22; 272:5-10.)(357:269:21-23.)
96. Undisputed, but clarified that VBE only interviewed white candidates for
the position of 12 month bookkeeper.(35-25:Exhibit J-2.)
12

Respondent's App. 15
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 15 of 43

97. Disputed. Ms. Smith applied for the position.(35-2: 186:9-15). When Greer
was moved into Nancy Smith's bookkeeping position, Ms. Smith applied for Greer's
previous position.(35-2: 186: 17-20.)
98. Disputed. See il 101.
99. Disputed. See il 95.
100. Undisputed that three of the four applicants interviewed by Dr. Burgess
are white. Dr. Burgess hired Amy Schmidt, who is white.(35-26:Ex. J-3.)
101. Disputed. Phillips, the corporate designee for VBE, did not know who the
decision-makers were for any of the positions that Ms. Smith applied for nor the
reasons she was not interviewed or hired.(35-6:142:16-143:11.) The purpose of
designating an organizational representative is to prevent "bandying," which is the
practice of presenting for deposition employees who disclaim knowledge of facts that
are clearly known by other employees and, thus, the organization itself. Brazos River
Auth. v. GE Ionics, Inc., 469 F.3d 416, 432-33 (5 th Cir. 2006).

102. Disputed. VBE, through its Rule 30(b)(6) designee, testified it did not
know who the decision-makers were for any for the positions for which Ms. Smith
applied.(35-6: 142: 16-143: 11.)
103. Disputed. See ilil 101 and 102.(35-7: 150:20-151: 17; Pl.Ex. 22.)
104. Disputed. VBE testified that Smith and Johnson (both African American)
13

Respondent's App. 16
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 16 of 43

were more qualified than Missy Johnson, who failed to meet the mmunum
qualifications for the position.(35-7:215:7-23.)
105,106. Disputed. See,l,l 101 and 102.

B.

Additional Undisputed Facts.

I. Plaintiff Anita Smith is an African-American female.(35-1 :58:7-8.) She is
approximately fifty-one years of age.(35-1: 12:8-10.)
2. Ms. Smith worked for the Binningham Bd. of Educ. for twenty years as a
secretary/bookkeeper (35-1: 16:8-21 ), and for the Bessemer Bd. of Educ. for another
five years.(35-1: 18: 12-19: 10.)
3. Ms. Smith retired from her position with Bessemer a couple months before
being hired by VBE.(35-1 :29: 19-30:2.)
4. During the combined twenty-five years of employment with the Birmingham
and Bessemer boards of education, Ms. Smith never received a negative
evaluation.(35-1 :31: 15-32:23.)
5. Wes Gordon was the principal of the Vestavia High School ("VHS") during
the 2013-2014 school year when he interviewed and hired Ms. Smith for the position
of secretary/registrar with VBE.(35-1 :37:5-14; Pl.Ex.31; 35-1 :40: 11-18.)
6. Ms. Smith performed the duties of secretary/registrar at VHS during the
2013-2014 school year.(35-1 :47:4-7.)
14

Respondent's App. 17
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 17 of 43

7. Gordon evaluated Ms. Smithduringthe2013-2014 schoolyear.(Pl.Ex.3,31.)
In each category of assessment, Gordon rated Ms. Smith's performance as either
"Meets or Exceeds Requirements" or "Demonstrates Excellence." Id.
8. Ms. Smith also perf01med the duties of secretary/registrar at VHS dming the
2014-2015 school year.(35-1 :53:20-23.)
9. Tim Loveless replaced Wes Gordon as the principal of VHS for the 20142015 school year.(35-1:54:1-6.)
10. At the beginning of the 2014-2015 school year, the staff at VHS was the
same as the previous year.(35-1:54:7-23.)
11. Ms. Smith completed the wage and hour on-line training on VBE's policy
on September 18, 2014.(35-19:10.)
12. The Vestavia Hills City Schools Wage and Hour Handbook states:
"Every employee is expected to clock in at or around his or her scheduled time
to begin work; however, regardless of when work is supposed to begin, the
trigger for clocking in is when work begins, not when work is scheduled to
begin."
"Every employee is supposed to work his or her scheduled hours and so
generally time entries should be fairly close to those hours."
(Pl.Ex.2:HH000l 75.)
14. All non-exempt personnel were subject to the same VBE Wage and Hour
policies.(Pl.Ex.2:HH000I 72.)

15

Respondent's App. 18
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 18 of 43

15. In September 2014, after becoming Principal at VHS, Loveless learned
about attendance problems with several teachers and staff.(35-14:20:3-23.)
16. In September 2014, Loveless reviewed all of the time sheets, looking for
a pattern oftardiness.(35-14:24:18-25: 13.) Then, about every other month, he would
look at those he considered had a pattern of tardiness. Id.
17. Loveless never discussed tardiness with the five individuals that he
considered to have a pattern oftardiness.(35-14:25:14-16.)
18. While Loveless claims that VBE maintained a list of employees and
personnel containing job descriptions and their schedules, no such list has ever been
produced in this case.(35-14:28:19-29:12.)
19. In October 2014, VBE hired Grace Hicks as an aide to the secretaries.(351:55: 1-l 1.)
20. Prior to Hicks being hired by VBE, Ms. Smith, as a registrar, would attend
periodic secretary/registrar"iNow" meetings with Nelson. (35-1: 114: 15-35-2: 116:8.)
21. After Hicks was hired, Strange told Ms. Smith that she was not to attend
the registrar meetings and that Hicks would attend instead. (35-1: 109: 19-110:2; 352: 116:9-117:5.)
22. On April 27, 2015, Loveless completed an evaluation ofMs. Smith, even
though she had been evaluated only eight months earlier.(35-14:33:4-11; 35-5.)
16

Respondent's App. 19
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 19 of 43

23. In the April 27, 2015 evaluation of Ms. Smith, Loveless rated Ms. Smith's
overall performance as "Meets or Exceeds Expectations."(35-5.)
24. When Loveless met with Ms. Smith about her evaluation, he did not tell
her that, if her punctuality did not improve, he would recommend that she be
tenninated.(35-14:75: 15-21.)
25. Loveless did not consider the perfonnance evaluation that he gave to Ms.
Smith on April 27, 2015 as a disciplinary action. (35-14:83:3-7.)
26. On April 27, 2015, Loveless evaluated Tracey Towns. (PL Ex. 4.) Ms.
Towns had attendance issues.(35-14:33:15-35:4.)
27. Ms. Towns' schedule required her to be at work from 7:45 a.m. to 3:45
p.m.(35-17:18:11-12.)
28. No one at VBE, including Loveless, ever discussed time and attendance
with Ms. Towns.(35-17:18:6-10; 28:2-4.)
29. Towns was tardy 337 times between July 25, 2013 and June 8,
2015.(Pl.Ex.5.)
30. Ms. Towns was tardy 138 times between July 23, 2014 and April 27, 2015.
Loveless considered that "a significant number of tardies for the school year."(3514:45:23-46:5.)
31. Between April 27, 2015, and May 19, 2015 (the date that Loveless
17

Respondent's App. 20
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 20 of 43

recommended that Ms. Smith be terminated for tardies), Towns had 14 additional
tardies.(35-14:46:6-11.) Loveless considered that a significant number of tardies for
this period.(35-14:46:11-14.)
32. Towns rarely arrived at work at her 7:45 a.m. scheduled start
time.(Pl.Ex.5 :0005 81-000680.)
33. Loveless rated Towns as "Meets or Exceeds Requirements" as to
"Reliability. "(Pl.Ex.4.)
34. When asked why he did not include a note on Towns' evaluation pertaining
to her attendance issue, Loveless responded: "There was no reason to mark anything
at that time other than she met and exceeded the requirements of her job position."
"In my professional judgment, it was not needed for her."(35-14:35:5-23.)
35. At the same Board meeting where Loveless recommended that Ms. Smith
be terminated due to tardiness, Loveless recommended that Towns become a tenured
staff person. (35-14:47:17-48:15.)
36. Ms. Towns is white.(Pl.Ex.6.)
37. Hicks was supposed to be at work between 7:00 a.m. and 3:00 p.m.(3514:50:9-13.)
38. Loveless concluded that Hicks had attendance issues by not arriving at 7: 00
a.m.(35-14:50: 14-19 .)
18

Respondent's App. 21
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 21 of 43

39. Loveless never counseled Hicks about her time and attendance, but
recommended that she be hired permanently.(35-14:50:20-22.)
40. On April 27, 2015, Loveless evaluated Hicks. (Pl.Ex.8.)
41. Despite Hicks' attendance problems, Loveless rated her as "Meets or
Exceeds Requirements" as to "Reliability."(Pl.Ex.8.)
42. Hicks is white. (35-4:50:23-51 :2.)
43. Nancy Smith was another employee who Loveless identified in September
2014 as having attendance problems. (35-14:20:3-18.)
44. Nancy Smith's schedule required her to be at work from 7:00 a.m. to 3:00
p.m. (35-14:85:12-15.)
45. Nancy Smith never arrived at work on time from July 7, 2014 through June
30, 2015. (35-14:86: 15-23; Pl. Ex. 10.) During that period she typically arrived more
than one hour late. Id.
46. Loveless never issued any type of discipline or warning to Nancy
Smith.(35-14:87: 1-4.)
47. Nancy Smith is white.(35-14:82:6-17.)
48. Deborah Walker was another employee who Loveless concluded had a
problem with arriving at work on time.(35-14:73:10-18.)
49. Despite her tardiness, Loveless never disciplined Walker.(35-14:73:2219

Respondent's App. 22
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 22 of 43

74:1.)
50. Loveless reviewed the time sheets for Towns and Nancy Smith throughout
the 2014-2015 school year and was aware that Towns and Nancy Smith were
routinely tardy. He can provide no explanation as to why he did not issue some type
of warning or disciplinary action to those two women. (35-14:81 :16-82:14.)
51. Since Anita Smith was terminated, VBE has not hired a single AfricanAmerican secretary, bookkeeper or attendance keeper at VHS.(35-14:116:9-14.)
Anita Smith was the only African-American secretary in the eight schools within the
Vestavia Hills system.(35-7:241:21-243:12.)
52. During the meeting where VBE advised Smith she was being tenninated,
neither Loveless nor Hanson gave Ms. Smith a reason for terminating her, despite
Ms. Smith asking for the reason. (35-14:19:9-15.)
53. Hanson was not aware of any tardiness issues at VHS until Loveless told
her about Ms. Smith.(35-15:89:14-90:8.)
54. Loveless never told Hanson about the tardiness issues related to Nancy
Smith, Walker, Towns orHicks.(35-15:91:14-92:3.)
55. Loveless began having conversations with Hanson about terminating Ms.
Smith as early as March 2015.(35-15:81:6-15.)
56. Hanson was not concerned about Nancy Smith's failure to an-ive on time
20

Respondent's App. 23
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 23 of 43

for an entire school year because of the "time that's put in." (35-15:100:8-101:2.)
57. While Loveless claims that one of the two most important positions in the
front office of VHHS was the one held by Ms. Smith (35:p. 8 ii 23), he could not
recall who he placed in that position after Ms. Smith was told not to return to work
on May 19, 2015.(35-14:38:6-39:6.)
58. VBE posted Ms. Smith's position and then officially selected Hicks to
replace Ms. Smith, effective June 9, 2015.(Pl.Ex.15.)
59. On June 9, 2015, Hicks resigned from her 187-day clerical position
effective May 22, 2015 .(Pl.Ex.13; Pl.Ex.14.) Despite her later resignation, retroactive
to May 22, Hicks continued to work for and be paid by VBE from May 22 through
May 29.(Pl.Ex.9:00064.)
60. On September 22, 2014, Phillips received an email from a parent and
forwardedittoLoveless.(35-6: 106:2-11; Pl.Ex.17.) Phillips expected Loveless to call
the parent involved and to address the secretarial staff as to the customer service.(356:107:2-22.)
61. In the email Phillips states: "This has been a common complaint of parents
at VHHS - for years. "(Pl.Ex.17.) Phillips was refe1Ting to the secretarial staff in
general. She was not refen-ing to Ms. Smith.(35-6:108:23-109:14.)
62. Loveless forwarded the email to Strange, asking her to "File please."
21

Respondent's App. 24
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 24 of 43

(Pl.Ex.17.) Loveless did not believe that the email pertained to Ms. Smith.(3 514 :57 :4-19.) Loveless had received complaints from parents "on just about everybody
in the front office."(35-14:57:23-58:2.)
63. On November 18, 2014 (two months later), Strange printed out the email
pertaining to the parent complaint and placed it in Ms. Smith's file. She did this
despite the fact that the parent who sent the email never spoke with Strange and never
identified Smith as the person she spoke to.(35-12:106:11-109:1; 117:6-118:20.)
64. Strange assumed that whenever a parent would complain about "the lady
in the front office," that parent was complaining about Smith.(35-12: 110:5-111: 1.)
Strange made this assumption despite her claim that Smith was frequently late and
absent from her desk during the day.(35-12:29:16-30:10; 35-12:37:5-38:21.)
65. No member of the staff or faculty ever complained to Loveless about
Smith's performance. Strange never told Loveless that faculty or staff had complained
about Smith. Loveless had no difficulty working with Smith.(35-14:58:8-23.)
66. At no time after learning that Ms. Smith had applied for retirement on May
19, 2015 did VBE or any of its agents seek to have Ms. Smith's "termination"
changed to "retirement." (35-2:176:16-23;193:5-21;204:4-8;224:20-23.)
67. No one replaced Hicks after she assumed Smith's job.(35-12:124:23125:7.)
22

Respondent's App. 25
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 25 of 43

68. Ms. Smith, with over 20 years of school bookkeeper experience, applied
for the bookkeeper position created by the death of Nancy Smith. (35-2:186:9-15.)
When Lisa Greer was awarded Nancy Smith's position, Ms. Smith applied for
Greer's vacant bookkeeping position.(35-2: 186: 17-20.)
69. Ms. Smith applied for open and posted secretarial positions at Central and
East Schools in Vestavia and was never granted an interview.(35-2:187:1-14.)
70. Missy Johnson, white and born in 1978, did not meet the minimum
requirements for the registrar position, but was hired for that position over Ms. Smith.
(35-7:209:2-8; 212:21-213:17; 216:7-12.)
71. Missy Johnson worked previously as an exercise specialist and had no
registrar experience.(35-7:214:6-16.) Phillips admitted that Ms. Smith was more
qualified for the registrar job than Missy Johnson and that Missy Johnson did not
have the requisite experience.(35-7:215:7-23.)
72. Phillips also admitted that Felicia Johnson, African American, with an
accounting degree and years of bookkeeping experience, was more qualified than
Missy Johnson. F.Johnson was not granted an interview. (35-7:218:12-223:2.)
73. Phillips testified she would not investigate why two excellent qualified
Afiican American candidates were not granted an interview for the school registrar
position, while a young, white, fitness instructor was given the job.(35-7:223:1123

Respondent's App. 26
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 26 of 43

224:6.)
74. Ms. Smith applied for other open secretarial positions at VBE that were
posted or she learned about but again was never granted an interview or contacted
about her application.(35-2:226:1-7; Pl. Ex. 25.)
75. Ms. Smith applied for the posted position ofBookkeeper/Accounts Payable
and this position was awarded to Ronnie "Cricket" Justice, white female.(Pl. Exs. 26;
27.) Ms. Smith was not granted an interview for this position.(35-7:152:8-13.)
76. Amy Schmidt, white female, was hired as a school bookkeeper, a job that
Ms. Smith also applied for and was not interviewed.(35-7:201 :2-18; Pl. Exs. 28; 29.)
77. Gerri Tinney, white female, was hired from another school district as
school secretary in Vestavia within weeks ofMs. Smith beingten11inated.(Pl. Ex. 30.;
35-6:65 :6-66: 16; 35-7: 180: 19-181: 16.) The job was not posted and Ms. Tinney was
placed in the position.(35-7:189:2-190:22.)
78. Phillips does not know if Hicks' previous position was posted or if anyone
was hired to replace her.(35-7: 179: 10-15.)

II.

ARGUMENT
A.

VBE discriminated against Ms. Smith because of her race.

Title VII was amended in 1991. Today, "an unlawful employment practice is
established when the complaining party demonstrates that race ... was a motivating
24

Respondent's App. 27
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 27 of 43

factor for any employment practice, even though other factors also motivated the
practice." 42 U.S.C. § 2000e-2(m). This change to Title VII has had far-reaching
implications on the substantive law, particularly with regard to the continuing
viability of the McDonnell Douglas paradigm for assessing evidence. See, Quigg v.

Thomas Cnty. Sch. Dist., 814 F.3d 1227 (11 th Cir. 2016).
Today, rather than attempting to fit evidence into "boxes", such as direct
evidence, circumstantial evidence, etc., comis are examining the evidence in its
entirety in order to detem1ine whether there is sufficient evidence to survive summary
judgment. Smith v. Lockheed-Martin Corp., 644 F.3d 1321, 1328 (1 I th Cir. 2011).
As the Seventh Circuit recently stated in Ortiz v. Werner Enterprises, Inc., 834 F.3d
760, 764-65 (7 th Cir. 2016), "Evidence is evidence. Relevant evidence must be
considered and irrelevant evidence disregarded, but no evidence should be treated
differently from other evidence because it can be labeled 'direct' or 'indirect."'
While VBE relies upon the McDonnell Douglas test in its motion for summary
judgment, it misstates that test. 2 According to VBE, McDonnell Douglas, includes
as an element of a prima facie case, evidence that the "employer treated similarly

2

This Circuit has "directed that juries should not be instructed on the McDonnell Douglas,
framework." Farley v. Nationwide Mut. Ins. Co., 197 F.3d 1322, 1333 (11 th Cir. 1999). This
suggests that it is not necessary to meet the McDonnell Douglas test in order to defeat a motion for
summary judgment.
25

Respondent's App. 28
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 28 of 43

situated employees outside her classification more favorably." (35:21) This statement
of law is erroneous. In fact, evidence that white employees were treated more
favorably than the plaintiff is evidence of pretext. McDonnell Douglas C01p. v.

Green, 411 U.S. 792, 804 (1973).
Regardless, whether labeled as an element of a prima facie case or as rebuttal
to VBE's claim that Ms. Smith was tenninated because of her excessive tardiness, a
reasonable jury could conclude that VBE was motivated by Ms. Smith's race when
it terminated her. Smith belongs to a racial minority, African-American; she was
subjected to an adverse job action (tennination); she was qualified for her job; she
was replaced by Hicks, a white woman; and other white employees who engaged in
the same or similar conduct were not terminated.
1.

White employees were treated more favorably.

Soon after becoming Interim Principal of VHS, Loveless held a meeting with
faculty and staff and stated his expectation that all employees should be on time each
day.(35-27:pp. 1-2.) In September 2014, Loveless identified at least five individuals
who had a pattern oftardiness.(35-14:23:14-16.) Loveless reviewed the time sheets
for these employees every other month, looking for patterns of tardiness.(3514:24: 18-25: 13.)
On April 27, 2015, Loveless evaluated three employees: Anita Smith, Tracey
26

Respondent's App. 29
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 29 of 43

Towns, and Grace Hicks.(35-5; Pl. Ex. 4; Pl. Ex. 8.) In his otherwise favorable
evaluation of Ms. Smith, Loveless noted that "punctuality was an area in need of
improvement." (35-5.) Loveless did not tell Ms. Smith that, ifherpunctuality did not
improve, he would recommend that she be terminated and he did not consider the
evaluation to be a disciplinary action.(35-14:75:15-21.)
As to Towns, Loveless knew that she had a problem with getting to work on
time.(35-14:33:15-35:4.) Towns was tardy 138 times between July 23, 2014 and April
27, 2015. Loveless considered that to be "a significant number of tardies for the
school year."(35-14:45:23-46:5.) Indeed, Towns rarely arrived at work at her
scheduled start time.(Pl.Ex.5:000581-000680.) Despite Towns attendance issues,
Loveless rated her as "Meets or Exceeds Expectations" as to "Reliability," and made
no notation in her evaluation about punctuality.(PL.Ex.4.) Loveless' only explanation
for this disparate treatment is that "[i]n my professional judgment, it was not needed
for her."(35-14:35:5-23.) Loveless then recommended that Towns receive tenure.(3514:47: 17-48: l 5.) Towns is white.(Pl.Ex.6.)
Nancy Smith was identified by Loveless in September 2014 as having an
attendance problem.(35-14:20:3-18.) N.Smith never arrived at work on time from July
7, 2014 through June 30, 2015.(35-14:86:15-23; Pl.Ex.IO.) N.Smith was typically
more than one hour late. Id. Nevertheless, despite Loveless' claim that he reviewed
27

Respondent's App. 30
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 30 of 43

time sheets every other month, he never issued any type of discipline or warning to
N.Smith.(35-14:87:1-4.) N.Smith is white.(35-14:82:6-17.)
Loveless can provide no explanation as to why he did not issue some type of
warning or disciplinary action to those two whitewomen.(35-14:81: 16-82: 14.) Other
white employees who were chronically tardy were never counseled by Loveless.
Hicks, the employee who replaced Ms. Smith on May 22, 2015, had attendance
issues.(35-14:50:14-19.) Despite Hicks' attendance issues, Loveless rated her as
"Meets or Exceeds Requirements" as to "Reliability," and made no notation about her
lack of punctuality.(Pl.Ex.8.) Hicks is white.(35-4:50:23-51 :2.) Deborah Walker,
another white employee who could not arrive at work on time (35-14:73:10-18), was
never disciplined by Loveless.(35-14:73:22-74:1.)
Loveless claims he expected all employees to be punctual. At no time did
Loveless carve out any exceptions to this rule or explain to Ms. Smith that her job
was so important that no tardiness on her part would be acceptable. Indeed, as noted
above, Loveless has no explanation as to why he noted "punctuality" on Ms. Smith's
evaluation, but did not note punctuality on the evaluations of the chronically tardy
white employees.
Evidence that an employer selectively enforced its attendance policy only
against black employees is sufficient to establish discrimination. Lloyd v. Hi-Ridge
28

Respondent's App. 31
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 31 of 43

Transport, 395 F.Supp.2d 1290, 1294 (M.D. Ala. 2005) (reasonable fact-finder could
conclude that employer's decision to fire plaintiff for tardiness is pretextual because
white employee guilty of nearly identical misconduct or worse, was not terminated.)
The record in this case establishes that numerous employees were frequently
tardy. Many of the white employees where tardy more frequently than Ms. Smith.
But only Ms. Smith, the black employee, was terminated because of her tardiness.
White employees, including a white employee, who rarely arrived at work on time,
and another employee who never arrived on time, not only were not terminated, or
even disciplined, but were actually recommended for tenure.

2.

Defendant's refusal to explain its decision is pretext.

During the meeting where Hanson and Loveless told Ms. Smith that she was
being tenninated, Ms. Smith asked them why her contract was not being renewed.
Hanson told Ms. Smith that she "could not give [her] a reason." During that meeting
Hanson did not mention punctuality, or complaints from parents, teachers or coworkers. In fact, no reason was ever given to Ms. Smith until after she filed her
charge of discrimination. (35-2:219:8-221: 1.)
The Eleventh Circuit has concluded that, when an employer refuses to tell an
employee, at the time it fires her, why her employment is coming to an end, a trier of
fact reasonably could find that a subsequent explanation for taking the adverse action
29

Respondent's App. 32
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 32 of 43

constitutes a pretext for discrimination. Mock v. Bell Helicopter Textron, Inc., 196
Fed. Appx. 773, 774 (11 th Cir. 2006). Here, not only did VBE not tell Ms. Smith why
it was tenninating her at the time it fired her, VBE never warned Ms. Smith that her
job was in jeopardy due to her alleged tardiness. Even during the meeting where
Loveless evaluated Ms. Smith, he did not tell Ms. Smith that if she did not correct her
punctuality she would be terminated. A reasonable jury could conclude that VBE's
argument that Ms. Smith was tenninated due to her tardiness is actually a post hoc
justification to conceal the racial motivation behind VBE's decision. 3
3.

Racial stereotypes infected VBE's decisionmaking.

Biases and stereotypes affect many imp01iant personnel decisions. Price
Waterhouse v. Hopkins, 490 U.S. 228,251 (1989) (sex stereotypes evidence of sex

discrimination). In the article, Held to a different standard: Racial differences in the
impact of lateness on advancement opportunity, 86 Journal of Occupational and

Organizational Psychology 142 (June 2013), the authors note that the tardiness of
Black employees, but not white employees, negatively impacts appraisal ratings. A
similar conclusion was reached by Rachel D. Godsil in Answering the Diversity

3

Indeed, Strange testified that the first she looked at Ms. Smith's time sheets for 2014-2015
was when "we gathered everything to give to the lawyers." (35-12:29:4-15.) The time cards in Ms.
Smith's file for the 2013-2014 year, upon which Principal Loveless bases his affidavit, were printed
on September 2, 2015, months after Ms. Smith had been tem1inated.(36-1:3-11: BOE 000027000035.)
30

Respondent's App. 33
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 33 of 43

Mandate: Overcoming Implicit Bias and Racial Anxiety, N .J. Lawyer, February 2014.

Ms. Godsil notes that "negative acts that are stereotype consistent will generalize to
the person when the person is a minority (she is a 'tardy person'), while the same act
will be deemed situation specific (she was 'delayed') if the person is white." Id. at 46.
This is a common racial stereotype. 4
The record in this case demonstrates this stereotype in action. Strange
consistently pointed out Ms. Smith's "tardiness" to Loveless. Yet, when asked about
Nancy Smith's habitual-tardiness, Strange's reaction was quite different: "Nancy's
late again, she stayed late again, we're worried about her safety." (35-12:61: 10-12.)
Loveless testified that Strange would repeatedly remind him when Ms. Smith was late
arriving at work. She never did so when the other employees were tardy. Despite the
fact that Nancy Smith was unable to arrive at work on time for an entire year, she was
never considered to be "tardy" by Strange or Loveless.
Hanson had a similar reaction when reviewing Nancy Smith's time records:
Q.
... Can you look at Nancy Smith's time records and tell me if any
of her time entries clocking in and clocking out cause you concern for
the school year?
4

See, Coloredpeople's time, at https://en.wikipedia.org/wiki/Colored people%27s time, last
visited on July 9, 2017: "Colored people's time (also abbreviated to CP time or CPT) is an
American expression referring to a negative stereotype of African Americans as frequently being
late. The expression is often described as a derogatory racist stereotype. It ... implies that African
Americans have a relaxed or indifferent view of work ethic, which leads to them being labeled as
lazy or unreliable."
31

Respondent's App. 34
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 34 of 43

***

A.
It appears there's a pattern of - - the time that's for the morning
is later, and the time in the evening is longer.
Q.
Does that cause you concern?
A.
With the time that's put in, no.
Q.
So you can show up any time you want and just work longer
hours?
A.
No. I don't know - - I don't know - - I don't know what - - I'm
not aware as much as - - I mean, I don't- - I don't - - I don't know. I'm
unable to answer that question.(35-15: 100:8-101 :9.)
A reasonable fact finder could conclude that Hanson, Loveless, and the staff
ofVHS harbored a negative racial stereotype about Afiican American employees and
acted on that stereotype to the detriment of Ms. Smith. A similar racial stereotype
operated when Strange determined, without any supp01iing evidence, that the email
from the disgruntled parent pe1iained to Ms. Smith and placed that email in Ms.
Smith's personnel file.

4.

Other evidence of race discrimination and hostility.

Other pieces of evidence supports the conclusion that the staff of VHHS,
particularly under Loveless, were oblivious to the acts of racism affecting Ms. Smith.
For example, despite the fact that this Court banned the display of the Confederate
flag from the VHHS campus in 2007 (3 5 at 6 :'if 14), Strange, the secretary to principal
of the VHHS campus, still believed in 2015 that the Vestavia schools should use the
Confederate flag as a symbol. She saw nothing wrong with the schools displaying that

32

Respondent's App. 35
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 35 of 43

flag. 5 (35-2:127:13-128:30.) Strange did not feel constrained to ask Ms. Smith
whether she agreed with her; and neither Hanson nor Loveless were concerned about
Strange's support for a racist symbol which had been banned from the campus by a
federal court order.
Also significant is Hanson's view on what comprises race discrimination.
Hanson had been the director of human resources for Auburn City Schools.(3515 :9: 13-20.) In that position she provided training to principals and assistant
principals on hiring.(35-15: 15 :6-9 .) Diversity was part of the training that she
provided, including the laws involving discrimination.(35-15: 19:7-20:8.) Yet, when
confronted with the evidence demonstrating that Loveless recommended tenninating
Ms. Smith on the basis of tardiness, but did not recommend terminating white
employees with similar or worse records of tardiness, Hanson remained convinced
that Loveless' decision was not based on race because "[t]here was no discussion of
a race issue ever."(35-16:211: 13-215:11.) This naive understanding ofTitle VII is not
surprising in light of the fact that the VBE Discrimination Awareness training
requires only 15 minutes to complete.(35-19 at 10.)
5

The connection between the Confederate flag and racism in Alabama is undeniable.
Governor George Wallace raised the flag at the state capital as a visual reminder of his "Segregation
Forever" campaign. See James Forman, Jr., Driving Dixie Down: Removing the Confederate Flag
from Southern State Capitols, 101 YaleL. J. 505,505 (1991). The Confederate battle emblem "takes
no back seat to the Nazi Swastika" in its ability to provoke a visceral reaction. Daniels v. Harrison
Cnty. Bd. of Supervisors, 722 So.2d 136, 140 (Miss. 1998).

33

Respondent's App. 36
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 36 of 43

A reasonable jury could conclude that this selective blindness to racial issues
in the workplace is why Hanson erroneously concluded that Ms. Smith's complaints
about being "disrespected" in the workplace related to having "a lot of women in the
same workplace"(3 5-16: 181: 10-15), rather than to a racially hostile environment.
Someone trained in human resources and sensitive to diversity issues would
understand that when Ms. Smith complained about being "disrespected" by her white
coworkers, she was complaining about racism. See, No Right To Respect: Dred Scott
and the Southern Honor Culture, 42 New Eng. L. Rev. 79, 81 (2007) (" ... when
[Justice] Taney notoriously characterized black people as 'a subordinate and inferior
class of beings, who ... whether emancipated or not ... had no rights which the
white man was bound to respect,' he was also saying that blacks had no right to be
respected by whites.")
Hanson did not want to see racial discrimination and was intentionally blind
to it. She merely rubber-stamped Loveless' recommendation to tem1inate Anita
Smith, knowing full-well that Ms. Smith had been complaining about mistreatment
in the workplace because of her race.

5.

Defendant refused to interview Ms. Smith for open jobs.

Additional evidence of racial discrimination can be found in VBE's failure to
interview Ms. Smith for any of the open positions for which she has applied. Ms.
34

Respondent's App. 37
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 37 of 43

Smith has applied for various open secretarial positions at VBE. She has never been
interviewed for these position; though Phillips admitted that Ms. Smith was more
qualified for the registrar job that went to Missy Johnson. Phillips also admitted that
Felicia Johnson, another African American with account and bookkeeping
experience, was more qualified than Missy Johnson. Phillips is unable to explain
why these two qualified, African American women were not interviewed for a job
that was awarded to a white fitness instructor who lacked the required experience and
qualifications for the position. Admission from an employer's representative that the
plaintiff is more qualified than the successful candidate, when accompanied by some
evidence of discriminatory animus, may pen11it the trier of fact to conclude that the
employer unlawfully discriminated. Wilson v. B/E Aerospace, Inc., 376 F.3d 1079,
1090-91 (11 th Cir. 2004).

6.

Listing Ms. Smith as "terminated" rather than "resigned" is
further evidence of discrimination.

Loveless and Strange not only worked together to terminate Ms. Smith
because of her race, they took steps to insure that Ms. Smith would not be hired by
another school system. Despite the fact that Ms. Smith notified the Board of her
intention to retire the morning of May 19, 2015, she was identified as "terminated"
rather than "retired" during the Board meeting that occurred on the evening of May

35

Respondent's App. 38
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 38 of 43

20, 2015. The only other VHHS person listed as "terminated" in those minutes is Otis
Harris, the African-American custodian. (PLEx.33) Because Ms. Smith was listed as·
"terminated" rather than "retired," Ms. Smith must explain her te1mination on every
subsequent application for employment which she files. Every school application
requests this infom1ation. This perpetuates the consequences ofVBE's discriminatory
termination decision.
This treatment is in stark contrast to how VBE treated Hicks. Phillips and
Loveless manipulated the paperwork so that Hicks was pennitted to resign
"retroactively." Even after Hanson and Loveless learned that Ms. Smith had
submitted her retirement paperwork before the May 20, 2015 Board meeting, they
took no steps to correct the minutes or termination paperwork.
Taken together, the evidence is sufficient for a reasonable jury to conclude that
Anita Smith was tenninated because of her race and denied subsequent interviews for
open positions because of her race. VBE's motion for summary judgment on
Plaintiffs claim of race discrimination should be denied.

B.

A reasonable jury could conclude that VBE has retaliated against
Ms. Smith because she opposed their unlawful conduct.

Ms. Smith has filed numerous applications seeking to be reemployed by VBE.
Despite her superior qualifications for a number of these positions, as admitted by

36

Respondent's App. 39
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 39 of 43

Phillips, Ms. Smith has never even been interviewed for the jobs and the jobs have
been awarded to less qualified individuals. VBE's response to these facts is to claim
that its refusal to interview Ms. Smith is not an adverse employment action. VBE is
mistaken. First, the case law cited by VBE is not controlling as it relies on case
authority predating the Supreme Court decision in Burlington N & Santa Fe Ry Co.
v. White, 548 U.S. 53 (2006). Recent Eleventh Circuit authority has recognized that

its earlier precedents, requiring an employee to show a materially adverse
employment action to establish a retaliation claim, have been replaced by the new
Burlington standard: a materially adverse action means one that well might dissuade

a reasonable worker from making or supporting a charge of discrimination. Crawford
v. Carroll, 529 F.3d 961, 973 (11 th Cir. 2008). Furthe1more, even before Burlington,

the Eleventh Circuit recognized that "blackballing" an employee from employment
opportunities in retaliation for having engaged in protected activity can rise to the
level of retaliation. Shannon v. Bel/south Telecommunications, Inc., 292 F.3d 712,
716-717 (11 th Cir. 2002).
The mere fact that a VBE supervisor can offer some explanation for who he
hired out of the limited pool of interviewed applicants does not rebut Ms. Smith's
evidence that she was wrongfully excluded from the pool of qualified applicants in
the first place. Phillips has testified, as VBE's representative, that Ms. Smith was
37

Respondent's App. 40
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 40 of 43

more qualified than at least one of the individuals hired by VBE. There is no
question but Ms. Smith applied for that job and was not interviewed. VBE has not
offered any explanation as to why Ms. Smith was not even granted an interview for
that position.

This evidence, along with the fact that Ms. Smith's claim of

discrimination was widely discussed with VBE's administration, is sufficient to
survive summary judgment on Ms. Smith's retaliation claim.

C.

The evidence is sufficient to support Ms. Smith's ADEA claim.

Smith has demonstrated inconsistencies in Loveless' handling of her
evaluation and subsequent discharge. See Combs v. Plantation Patterns,106 F.3d
1519, 1538 (11th Cir. 1997) ("The district comi must evaluate whether the plaintiff
has demonstrated 'such weaknesses, implausibilities, inconsistencies, incoherencies,
or contradictions in the employer's proffered legitimate reasons for its action that a
reasonable factfinder could find them unworthy of credence."'(quoting Sheridan v.
E.I. DuPont de Nemours and Co.,100 F.3d 1061,1072 (3d Cir. 1996))). More

specifically, there were younger white secretaries whose attendance was seriously
worse than Ms. Smith. Ms. Smith was never told that if she did not improve by
clocking in before 7 :00 she would be terminated. The only "write-up" addressing
attendance was a "Meets or Exceeds Requirements" evaluation that was provided to
Ms. Smith three weeks prior to her termination and only after Loveless and Hanson
38

Respondent's App. 41
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 41 of 43

had discussed that they were tem1inating Ms. Smith at the end of the school year.
When Ms. Smith asked why she was being tenninated Hanson and Loveless refused
to answer, stating they did not have to provide a reason. But younger, white
employees were not disciplined, nor tenninated and were approved for tenure at the
same Board meeting where Ms. Smith's termination was approved even though their
attendance issues were similar or worse. Even when faced with evidence that the time
records of these younger white employees were more problematic than Ms. Smith's,
VBE maintained that ignoring these attendance issues was justified although it could
provide no reason to support this position.
A reasonable jury could find that the lone African American secretary, over the
age of 50, was singled out for differing treatment and tenninated based on her race
and her age. In sum, the record contains '"evidence of such quality and weight that
reasonable and fainninded men in the exercise of impaiiial judgment might reach
different conclusions."' See MacPherson v. University ofMontevallo, 922 F.2d 766,
776 (11th Cir. 1991) (quoting Verbraeken v. Westinghouse Elec. Corp., 881 F.2d
1041,1045 (11th Cir. 1998)). More particularly, as to pretext, "[t]he evidence
presented by plaintiff[] is sufficient to allow a jury in the exercise of impartial
judgment to conclude that [VBE] proffered explanations are unworthy of belief."
MacPherson, 922 F.2d at 776.
39

Respondent's App. 42
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 42 of 43

III.

Conclusion

Anita Smith performed her job as registrar competently. If she was late for
work, her tardiness was no worse than that of her younger, white coworkers. But,
because of her race and her opposition to the way in which she was treated in an all
white environment, VBE decided to get rid of her. Focusing on her attendance
history, while ignoring that of her coworkers, VBE used that history as a pretext to
get rid of Ms. Smith because of her race and her age. Once rid of her, VBE has been
diligent in its effort to make certain that Ms. Smith is never employed in the Vestavia
School system again. VBE subjected Ms. Smith to a racially hostile environment,
tenninated her because of her race, her age, and because she objected to the
mistreatment she was experiencing on a daily basis, and then retaliated against her
after she filed her charges of discrimination. VBE's motion for summary judgment
should be denied in its entirety.
Respectfully submitted,
ls/Alicia K. Haynes
Alicia K. Haynes
Charles E. Gue1Tier
OF COUNSEL:
HAYNES & HAYNES, P.C.
1600 Woodmere Drive
Binningham, Alabama 35226
(205) 879-0377
40

Respondent's App. 43
Case 2:16-cv-00842-VEH Document 68 Filed 08/08/17 Page 43 of 43

CERTIFICATE OF SERVICE

I hereby certify that I electronically filed the foregoing with the Clerk of the
Court using the CM/ECF system which will send notification of such filing to the
following, this 8th day of August, 2017:
Mark S. Boardman, Esq.
Katheline Watkins
Boardman, Carr, Petelos,
Watkins & Ogle, P.C.
400 Boardman Drive
Chelsea, AL 35043

Isl Charles E. Guerrier
Charles E. Guerrier
Attorney for the Plaintiff

41

